No. 20-659

INTHE

~upreme Ql:ourt of tbe mniteb ~tatej
LARRY THOMPSON,
V.

Petitioner,

POLICE OFFICER P AGIEL CLARK, SHIELD #284 72,

Respondent.

On Writ of Certiorari to the United States Court of
Appeals for the Second Circuit
BRIEF OF AMICUS CURIAE LAW ENFORCEMENT
ACTION PARTNERSHIP IN SUPPORT OF
PETITIONER
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
4,061 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 11, 2021.

Colin Case Hogan
Wilson-Epes Printing Co., Inc.

